                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 14-00235-195


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

   Wilmington VA Medical Center 

       Wilmington, Delaware 





June 26, 2014

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                             CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE



                                           Glossary
                       AUD          alcohol use disorder
                       CBOC         community based outpatient clinic
                       DWHP         designated women’s health provider
                       EHR          electronic health record
                       EOC          environment of care
                       FY           fiscal year
                       MH           mental health
                       MM           medication management
                       NM           not met
                       OIG          Office of Inspector General
                       PACT         Patient Aligned Care Teams
                       PCC          primary care clinic
                       PCMM         Primary Care Management Module
                       RN           registered nurse
                       VHA          Veterans Health Administration
                       VISN         Veterans Integrated Service Network
                       WH           women’s health




VA OIG Office of Healthcare Inspections
                                     CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of March 3, 2014, at the following
CBOCs which are under the oversight of the Wilmington VA Medical Center and
Veterans Integrated Service Network 4:

    Cape May County CBOC, Cape May, NJ

    Kent County CBOC, Dover, DE

Review Results: We conducted four focused reviews and made recommendations
in all review areas:

Environment of Care. Ensure that:

	    A panic alarm system is installed at the Cape May County CBOC.

	    Personally identifiable information is protected by securing laboratory specimens so
      that patient privacy is maintained.

	    Women veterans are provided access to gender-specific restrooms at the Kent
      County CBOC.

	    The parent facility documents Emergency Management Preparedness-specific
      training completed for the Cape May County CBOC clinical providers.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Registered Nurse Care Managers receive motivational interviewing training within 12
      months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Ensure that the facility medication reconciliation policy complies with VHA policy.



VA OIG Office of Healthcare Inspections                                                       i
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


Designated Women’s Health Providers’ Proficiency. Ensure that all Designated
Women’s Health Providers:

	   Are designated with the Women’s Health indicator in the Primary Care Management
     Module.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16−21, for the full text of the Directors’ comments.) We consider
recommendations 2, 3, 4, and 10 as closed and will follow up on the planned actions for
the remaining recommendations until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                                 CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                            1
                                CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Cape May County
and Kent County CBOCs. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
 X     An alarm system and/or panic buttons are          The Cape May County CBOC provides MH
       installed and tested in high-risk areas (e.g.,    services but did not have an alarm system or
       MH clinic).                                       panic buttons.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                 3
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


       Areas Reviewed (continued)                                             Findings
       All medications are secured from
       unauthorized access.
 X     Personally identifiable information is protected   At the Cape May County CBOC, personally
       on laboratory specimens so that patient            identifiable information was not protected on
       privacy is maintained.                             laboratory specimens.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
 X     Adequate privacy is provided to women              Gowned women veterans at the Kent County
       veterans in the examination room.                  CBOC cannot access gender-specific restrooms
                                                          without entering public areas.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an Automated External
       Defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
 X     The parent facility includes the CBOC in           The parent facility did not document Emergency
       required education, training, planning, and        Management Plan-specific training for Cape
       participation leading up to the annual disaster    May CBOC clinical providers.
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1.   We recommended that a panic alarm system is installed at the Cape May County CBOC.

2. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens.


VA OIG Office of Healthcare Inspections                                                                    4
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


3. We recommended that processes are strengthened to ensure women veterans can access
gender-specific restrooms without entering public areas at the Kent County CBOC.

4. We recommended that the parent facility document Emergency Management Plan-specific
training completed for the Cape May County CBOC clinical providers.




VA OIG Office of Healthcare Inspections                                                                 5
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 16 (40 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for 2 of 10 patients diagnosed
       dependence.                                        with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that none of the 11 RN Care
       received motivational interviewing training        Managers received motivational interviewing
       within 12 months of appointment to PACT.           training within 12 months of appointment to
                                                          PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that CBOC/Primary Care Clinic staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.



VA OIG Office of Healthcare Inspections                                                                      6
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


6. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

7. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                 7
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 22 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                   Areas Reviewed                                         Findings
  X     Clinicians documented the medication             We did not find documentation that medication
        reconciliation process that included the         reconciliation included the newly prescribed
        fluoroquinolone.                                 fluoroquinolone in 13 of 22 patient EHRs.
        Written information on the patient’s
        prescribed medications was provided at the
        end of the outpatient encounter.
        Medication counseling/education for the
        fluoroquinolone was documented in the
        patients’ EHRs.
        Clinicians documented the evaluation of each
        patient’s level of understanding for the
        education provided.
  X     The facility complied with VHA policy.           Facility medication reconciliation policy was
                                                         reviewed:
                                                              Local policy required full medication
                                                                  reconciliation by specialty providers only
                                                                  when prescribing a long-term medication;
                                                                  however, VHA requires medication
                                                                  reconciliation at every episode of care
                                                                  when medications will be administered,
                                                                  prescribed, or modified.


Recommendations

8. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

9. We recommended that the facility medication reconciliation policy complies with VHA policy.




VA OIG Office of Healthcare Inspections                                                                    8
                                      CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

 NM                  Areas Reviewed                                         Findings
        CBOC and PCC DWHPs maintained
        proficiency requirements.
        CBOC and PCC DWHPs were designated               Three of three DWHPs were not designated with
  X     with the WH indicator in the PCMM.               the WH indicator in the PCMM.

Recommendation

10. We recommended that the Chief of Staff consistently ensure that all Designated Women’s
Health Providers are designated with the Women’s Health indicator in the Primary Care
Management Module.




VA OIG Office of Healthcare Inspections                                                                 9
                                                                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                                                                     Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                    Uniquesd                                  Encountersd

                                Station                  CBOC
         Location      State               Localitye                  MHg        PCh       Otheri       All       MHg        PCh       Otheri       All
                                   #                      Sizef
    Kent County         DE      460GC        Urban      Mid-Size      994        2,815     1,989      3,187      5,745       7,605      5,968     19,318
    Sussex County       DE      460GA        Rural      Mid-Size      627        2,557     1,915      2,831      4,986       6,540      7,539     19,065
    Cumberland
                        NJ      460HG        Rural      Mid-Size      709        2,043     1,964      2,769      3,409       5,098      5,105     13,612
    County
    Atlantic County     NJ      460HE        Urban      Mid-Size      957        2,119      916       2,562      4,801       7,119      1,859     13,779
    Cape May County     NJ      460GD        Urban      Mid-Size      352        976       1,563      2,334      1,544       2,583      1,899      6,026




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    10
                                CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                                  Tele-Health
           CBOC             Specialty Care Servicesk             Ancillary Servicesl
                                                                                                   Servicesm
    Kent County                      Podiatry                      Social Work                 Tele Primary Care
                                                            Diabetic Retinal Screening
                                                                MOVE! Programn
    Sussex County                    Podiatry               Diabetic Retinal Screening         Tele Primary Care
                                   Dermatology                       Nutrition
                                                                   Social Work
    Cumberland County                Podiatry                       Audiology                  Tele Primary Care
                                    Optometry               Diabetic Retinal Screening
    Atlantic County                  Podiatry               Diabetic Retinal Screening         Tele Primary Care

    Cape May County                 Optometry               Diabetic Retinal Screening         Tele Primary Care
                                     Podiatry
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           11
                                                                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                                                                     Appendix B


                                                          PACT Compass Metrics





                                                                                                                                                                
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                   12
                                                                             CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.



VA OIG Office of Healthcare Inspections                                                                                                                     13
                                                                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  14
                                                                         CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
excluded from this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                15
                               CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                        Appendix C
                                VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


           Date:        May 20, 2014

          From:         Interim Network Director, VA Healthcare VISN 4 (10N4)

       Subject: 	       Draft Report: Community Based Outpatient Clinic and
                        Primary Care Clinic Reviews at the Wilmington VA Medical
                        Center, Wilmington, DE

             To: 	      VHA 10AR MRS OIG CAP Reviews

                        OIG Follow-Up Staff (53B) 




       I have reviewed the responses provided by the Wilmington VA Medical
       Center and I am submitting it to your office as requested. I concur with all
       responses.

       If you have any questions or require additional information, please contact
       Moira Hughes, Acting VISN 4 Quality Management Officer at 412-822-
       3294.




       (original signed by:)

       Gary W. Devansky

       Attachments




VA OIG Office of Healthcare Inspections                                                         16
                               CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                        Appendix D
                               Facility Director Comments



               Department of
               Veterans Affairs                                     Memorandum


           Date:        5/15/2014

          From:         Director, Wilmington VA Medical Center (460/00)

       Subject:         CBOC and PCC Reviews of the Wilmington VA Medical
                        Center, Wilmington, DE

             To:        Director, VA Healthcare VISN 4 (10N4)



       I have reviewed the draft report of the Inspector General’s CBOC and
       PCC programs at the Wilmington VA Medical Center. We concur with the
       findings and recommendations.

       I appreciate the opportunity for this review as continuing process to
       improve care to our Veterans.



       (original signed by:)

       ROBIN C. AUBE-WARREN, FACHE

       Director




VA OIG Office of Healthcare Inspections                                                         17
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that a panic alarm system is installed at the
Cape May County CBOC.

Concur

Target date for completion: August 29, 2014

Facility response: The Cape May Coast Guard Base CBOC has an emergency phone
hard wired directly to the Base Security office in place at the reception desk. The
Facility will install a panic alarm system, consisting of wireless transmitters in the exam
rooms with an audible alarm at the nurse station, to alarm from the patient care areas to
the reception desk.

Recommendation 2. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens.

Concur

Target date for completion: Completed March 14, 2014

Facility response: The Laboratory Manager coordinated with the Nurse Manager of the
CBOCs, to discuss the overall security of collected blood and urine specimens. The
resulting following actions have been completed. The CBOC nursing staff has been
instructed to keep all phlebotomy doors closed and locked when the rooms are not in
use, preventing unauthorized access and safeguarding any protected patient
information (PPI) detailed on specimen containers and test tubes. This was reviewed
with all nursing staff at each CBOC by conducting rounds and during the CBOC nursing
meeting on March 14, 2014. All CBOCs use “sealed plastic bags” protecting patient ID
information on labs. As part of Laboratory CBOC visits, the Ancillary Testing
Coordinator reviews specimen security with staff to ensure compliance, and annotates
on inspections checklist. If remedial action is necessary, it would be immediately
brought to the attention of the actual site and the nurse manager, then reported to the
Ancillary Testing Committee.

Recommendation 3. We recommended processes are strengthened to ensure women
veterans can access gender-specific restrooms without entering public areas at the
Kent County CBOC.

Concur



VA OIG Office of Healthcare Inspections                                                      18
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


Target date for completion: Completed March 14, 2014

Facility response: At the Kent County CBOC, privacy is provided to women Veterans by
the use of curtains and exam tables positioned facing away from doors to the exam
rooms. Within the current structure, the nearest toilet facilities are not located in the
exam rooms and there is not a gender specific restroom available. Due to these
physical structure limitations, as suggested in VHA Handbook 1330.01, Health Services
for Women Veterans, women are discreetly offered the use of the toilet facilities prior to
asking them to disrobe for an exam. Going forward, the privacy and security needs of
women Veterans will be addressed when the facility remodels the current structure, to
improve care and compliance. To ensure that the environment promotes dignity,
privacy, safety and security, for women Veterans, VHA Handbook 1330.01 guidelines
will be followed and the Women’s Health Program Manager will participate in the annual
review of the CBOC health care environment assessment scheduled to be completed
during Environment of Care Rounds on August 7, 2014.

Recommendation 4. We recommended that the parent facility document Emergency
Management Plan-specific training completed for the Cape May County CBOC clinical
providers.

Concur

Target date for completion: Completed March 21, 2014

Facility response: Training was provided on March 21, 2014 with the assigned Cape
May county CBOC clinical providers. Each Clinical Provider was provided a copy of the
Emergency Management Quick Reference Guidebooks to review. The proper actions
and response activities were also reviewed to include: The importance of knowing the
location of the Bomb Threat Checklist located as an icon, on their desktop PCs, a
review of all steps on the PC Icon Bomb Threat Checklist, knowledge of the location of
and how to use the Quick Reference Guide’s hardcopy Bomb Threat Checklist located
in their facility, reviewing the important phone numbers listed in the Quick Reference
Guide, and documentation of the training.

Recommendation 5.       We recommended that CBOC/Primary Care Clinic staff
consistently complete diagnostic assessments for patients with a positive alcohol
screen.

Concur

Target date for completion: August 31, 2014

Facility response: The facility has provided education to the primary care providers to
consistently complete the diagnostic assessments on patients who present with positive
alcohol screens.     This was reviewed with the Ambulatory Care Council on
March 14, 2014, and with the primary care providers at the main facility on
March 21, 2014. CBOC providers will also receive the same educational training by
August 31, 2014.


VA OIG Office of Healthcare Inspections                                                      19
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


Recommendation 6.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: August 31, 2014

Facility response: The facility has provided education to the primary care providers to
consistently complete the diagnostic assessments on patients who present with positive
alcohol screens.     This was reviewed with the Ambulatory Care Council on
March 14, 2014, and with the primary care providers at the main facility on
March 21, 2014. CBOC providers will also receive the same educational training by
August 31, 2014. The Clinical reminder for follow up of a positive alcohol screen will be
modified to make the diagnostic assessments and offer of further treatments check box
mandatory.

Recommendation 7. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing training within 12 months of
appointment to Patient Aligned Care Teams.

Concur

Target date for completion: May 29, 2015

Facility response: The Wilmington VAMC will enter all Motivational Interviewing
Training into the Talent management System (TMS) to track training. The facility will
ensure that all CBOC and Primary Care Registered Nurse Care Managers will receive
the mandatory training in the next 12 months and have it documented. All newly
assigned CBOC and Primary care Nurse Care Managers will receive training within
12 months of appointment to Patient Aligned Care Teams as is required.

Recommendation 8.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 30, 2014

Facility response: This item has been added to Pharmacy and Therapeutics committee
agenda for the May meeting. Our current quinolone prescribing template will be
reviewed and modified to rectify any policy deficiencies in administration, during initial
prescription, or during prescription modification. Prescription template changes will be
forwarded to the Medical Executive Board for approval prior to implementation.




VA OIG Office of Healthcare Inspections                                                      20
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE


Recommendation 9. We recommended that the facility medication reconciliation policy
complies with VHA policy.

Concur

Target date for completion: May 12, 2014

Facility response: The Wilmington VAMC reviewed and updated the facility’s Center
Memoranda to include Medication Reconciliation occurring at all episodes of care where
medication is prescribed according to VHA policy. All staff have been educated to the
updated policy by inclusion in the facilities weekly newsletter, and training materials
were developed by pharmacy for service line leaders to utilize.

Recommendation 10. We recommended that the Chief of Staff consistently ensure
that all Designated Women’s Health Providers are designated with the Women’s Health
indicator in the Primary Care Management Module.

Concur

Target date for completion: Completed May 15, 2014

Facility response: The Chief of Staff, Women’s Health (WH) Program Manager, and
Health Administration Services (HAS), reviewed and ensured that all current designated
Women’s Health (WH) providers are labeled with the *WH* indicator in the Primary
Care Management Module (PCMM). New providers, once completing the designated
WH training and certification, will have the WH Program Manager verify completion,
then notify HAS personnel to assign the *WH* indicator in the PCMM. The facility
currently has 3 PACT Teams that are led by designated WH providers, with the proper
WH indicator listed in the PCMM.




VA OIG Office of Healthcare Inspections                                                      21
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Gail Bozzelli, RN, Team Leader
Contributors            Katharine Foster, RN
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Donna Giroux, RN
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow, MBA
                        Patrick Smith, M. Stat
                        Randal Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      22
                            CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare VISN 4 (10N4)
Director, Wilmington VA Medical Center (460/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Cory Booker, Thomas R. Carper, Christopher A. Coons, Robert Menendez
U.S. House of Representatives: John Carney, Frank A. LoBiondo


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      23
                                 CBOC and PCC Reviews at Wilmington VA Medical Center, Wilmington, DE
                                                                                          Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    24
